WAIVER

Supreme Court, U.S.
FILED

MAY 0 6 2021

SUPREME COURT OF THE UNITED STATE

OFFICE OF THE CLERK

No. 20-1517
FAST 101 PTY. LTD.

CITIGROUP INC. AND CITIBANK, N.A.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

Q

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
am a member of the Bar of the Supreme Court of the 'United States. (Filing instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:

John Moehringer

Date:

5/5/21

(Type or print) Name

Digitally signed by John Moehringer
Date: 2021,05.05 18:38:56 -04'00'

John Moehringer
0 Mr.

0 Ms.

0 Mrs.

Firm

Cadwalader, Wickersham & Taft LLP

Address

200 Liberty Street

City & State

New York

Phone

212.504.6000

0 Miss

Zip 10281
Email john.moehringer@cwt.com

A copy of this form must he sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Amy Leigh Pearson
cc:

"W
ED
MAY 1 . 1 2021

ElIFFICE OF THE CLERK

SUPREME COURT; U.S.

IN THE SUPREME COURT OF THE UNITED STATES
FAST 101 PTY. LTD.
AFFIDAVIT OF SERVICE
Petitioner,
No. 20-1517

v.
CITIGROUP INC. AND CITIBANK, N.A.
Respondents.

STATE OF NEW JERSEY)
ss.:
COUNTY OF BERGEN)
NICHOLAS RITZMANN, being duly sworn, deposes and says:
I am a resident of the State of New Jersey, am over the age of eighteen
(18) years and am employed by Cadwalader, Wickersham & Taft, and reside in the County of
Bergen.
On May 6, 2021, I caused to be served upon the following by e-mail and
by depositing to the care and custody of U.S. mail, a true and correct copy of the attached
Waiver in the above-referenced petition for a writ of certiorari:
Amy Leigh Pearson
1524 Fielding Drive
Glenview, IL 60026
amypatent@gmail.com

Nicholas Ritz
Sworn to before me this
6th day of May, 2021

Active 5621024

JESSICA JIMENEZ
Commission # 50122943
Notary Public, State of New Jersey
My Commission Expires
February 18, 2025

